                                      CLOSEOUT FOR M99040026




            On April 2 1, 1998, the complainant1 called the Office of Inspector General (OIG)
    with allegations that her former graduate student2, planned to publish data from an
    experiment funded by the complainant's NSF grants without providing proper credit to
    the complainant. The complainant learned of the former graduate student's manuscript as
    a journal reviewer. She had provided editorial changes on the manuscript, but the former
    graduate student apparently submitted the manuscript without her changes.

        The complainant asked if NSF could send a letter to one journal3 about her
ownership of the data and request proper authorship credit on any published manuscript
involving her NSF grants. OIG discussed these concepts with the complainant and
suggested that she request a letter to this journal from her university. In addition, OIG
advised the complainant that if the former graduate student should publish a manuscript
which she believed did not provide her with appropriate credit, the complainant should
call our office. OIG never received any additional correspondence from the complainant
regarding this former graduate student. A search on the IS1 Citation and ArticleFirst
databases found no publications by the former graduate student from 1998-1999.

       On April 2, 1999, OIG received an email message from an NSF program director4
which contained another allegation from the complainant. According to this allegation,
the complainant suspected that two scientists5 (the subjects) stole her experimental
hypothesis and subsequently submitted a manuscript6 for publication which tested this
experimental hypothesis. The complainant alleged the subjects learned of her
experimental hypothesis as confidential reviewers of her NSF proposal.7

         The complainant provided a copy of the manuscript which the subjects submitted
sequentially to two journals8 along with comments sent by the complainant to the journal
editors. According to one letter to the editor, the complainant stated that one subject
asked about her NSF proposal at a meeting, but the complainant provided "virtually no
information" to the subject. In addition, in her letter to OIG, the complainant conceded
"it is not impossible" the subjects independently conceived their experimental hypothesis
after reading an earlier manuscript published by the c ~ m ~ l a i n a nAlthough
                                                                        t.~      the subjects
cite her manuscript, the complainant questioned whether the subjects could implement a


I
     [footnote redacted]
     [footnote redacted]
     [footnote redacted]
4
     [footnote redacted]
     [footnote redacted]
6
     This manuscript is entitled [footnote redacted]
7
     [footnote redacted]
8
     [footnote redacted]
     [footnote redacted]

                                                 ,

                                                   Page 1 of 2
                             CLOSEOUT FOR M99040026

test of their experimental hypothesis in such a short period of time after the publication of
her manuscript.

        Consistent with NSF policy to keep the identity of reviewers confidential, OIG
neither affirms nor denies the subjects ever reviewed or even received a copy of the
complainant's proposal.     However, OIG examined the complainant's proposal and
related NSF records along with the subjects' manuscript and determined the subjects did
not obtain the complainant's experimental hypothesis from her IVSF proposal.

       As OIG has determined the complainant's allegations against the former graduate
student and the subjects are without merit, this inquiry is closed and no further action will
be taken on this case.



cc: Integrity, IG




                                         Page 2 of 2                                 M99-26
